                  Federal Emergency Management Agency
                                 Office of Inspector General – Audits Division
                                         Western District Audit Branch
                                          1111 Broadway, Suite 1200
                                       Oakland, California 94607-4052



                                            January 13, 2003


MEMORANDUM FOR:               Jeff Griffin
                              Regional Director, Region IX




FROM:                         Robert J. Lastrico
                              Western District Audit Manager

SUBJECT:                      Performance Audit Report: Management of FEMA
                              Disaster Grants Awarded Under the Stafford Act
                              State of Hawaii, Office of Civil Defense
                              Audit Report Number W-07-03

This memorandum transmits the results of the subject audit performed by Foxx & Company,
Certified Public Accountants. In summary, the audit determined that the State of Hawaii,
Department of Defense, Civil Defense Division could improve certain program procedures
associated with the administration of disaster assistance funds. On December 10, 2002, you
responded to the draft report (Exhibit B of the attached report). However, in order to resolve or
close the six findings in the report, we require that additional actions be taken or information be
provided. The table below identifies the actions or information that we would consider as
sufficient to close the findings and associated recommendations:

Finding
Number       Finding Title                         Additional Actions/Information Required
  A.1.  IFG Financial Reporting               Provide the actual or planned date when the
                                              recommended procedures were or will be developed
                                              and implemented for Financial Reporting for
                                              Disaster No. 1348 IFG Program.

 A.2.     Interest Free Advances              Establish the liability and collect the amount of
                                              interest owed by the State for the Disaster No. 1348
                                              loan.
Finding
Number          Finding Title                      Additional Actions/Information Required

 A.3.     Allocation and Accounting        Establish procedures for complying with Federal
          Program costs                    requirements and ensure FEMA is reimbursed, as
                                           appropriate, for the ordinary costs of $10,500 that
                                           were charged to the administrative allowance
                                           accounts.


 A.4.     Advances to PA Subgrantees       Discontinue the practice of providing advances to
                                           subgrantees for large projects, determine if interest
                                           was earned by the subgrantees on the advances, and
                                           recoup the interest earned, as appropriate, in
                                           accordance with Federal requirements

 B.1.     Timeliness of Payments to        Review the causes of delays experienced under the
          IFG Recipients                   IFG Program for potential benefit to the application,
                                           review, and approval process that will exist under the
                                           new IHP Program.

 B.2.     Administrative and Program       Provide the actual or planned date when
          Plans                            recommended procedures were or will be developed
                                           and implemented for administrative and program
                                           plans for IFG and PA Programs.

Pursuant to FEMA Instruction 1270.1, by March 14, 2003, please provide us comments as to any
additional actions you plan to take to resolve the findings and recommendations listed above. In
addition, please advise this office of actual or target completion dates for any actions taken or
planned to implement the recommendations in this report.

We would like to thank your staff and the State’s Civil Defense Division staff for the courtesies
extended the auditors during their fieldwork. Should you have any questions concerning this
report, please contact Brian Byrne or me at (510) 627-7011.




                                               2
